<html>
<title> - NOMINATIONS OF ANN C. FISHER, ASHLEY E. POLING, CATHERINE BIRD, RAINEY R. BRANDT, AND SHANA FROST MATINI</title>
<body><pre>[Senate Hearing 116-69]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-69

                     NOMINATIONS OF ANN C. FISHER,
                   ASHLEY E. POLING, CATHERINE BIRD,
                RAINEY R. BRANDT, AND SHANA FROST MATINI

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

       NOMINATIONS OF ANN C. FISHER TO BE A COMMISSIONER, POSTAL
            REGULATORY COMMISSION, ASHLEY E. POLING TO BE A
       COMMISSIONER, POSTAL REGULATORY COMMISSION, CATHERINE BIRD
       TO BE GENERAL COUNSEL, FEDERAL LABOR RELATIONS AUTHORITY,
       RAINEY R. BRANDT TO BE AN ASSOCIATE JUDGE, SUPERIOR COURT
 OF THE DISTRICT OF COLUMBIA AND SHANA FROST MATINI TO BE AN ASSOCIATE 
           JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                             JULY 16, 2019

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-455 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               Andrew J. Timm, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                 Claudine J. Brenner, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Peters...............................................     2
    Senator Sinema...............................................     3
    Senator Johnson..............................................    17
Prepared statements:
    Senator Lankford.............................................    27
    Senator Peters...............................................    29
    Senator Sinema...............................................    32
    Hon. Eleanor Holmes Norton...................................    35

                               WITNESSES
                         Tuesday, July 16, 2019

Hon. Mark Meadows, A Representative in Congress from the State of 
  North Carolina.................................................
    Testimony....................................................     3
    Prepared statement...........................................    34
Hon. Thomas R. Carper, A United States Senator from the State of 
  Delaware.......................................................
    Testimony....................................................     5
    Prepared statement...........................................    30
Ann C. Fisher to be a Commissioner, Postal Regulatory Commission
    Testimony....................................................     6
    Prepared statement...........................................    37
    Biographical and financial information.......................    39
    Letter from the Office of Government Ethics..................    58
    Responses to pre-hearing questions...........................    61
    Responses to post-hearing questions..........................    81
    Letter of Support............................................    84
Ashley E. Poling to be a Commissioner, Postal Regulatory 
  Commission
    Testimony....................................................     8
    Prepared statement...........................................    86
    Biographical and financial information.......................    89
    Letter from the Office of Government Ethics..................   112
    Responses to pre-hearing questions...........................   115
    Responses to post-hearing questions..........................   141
    Letter of Support............................................   144
Catherine Bird to be General Counsel, Federal Labor Relations 
  Authority
    Testimony....................................................    10
    Prepared statement...........................................   145
    Biographical and financial information.......................   147
    Letter from the Office of Government Ethics..................   166
    Responses to pre-hearing questions...........................   169
    Responses to post-hearing questions..........................   193
Rainey R. Brandt to be an Associate Judge, Superior Court of the 
  District of Columbia
    Testimony....................................................    11
    Prepared statement...........................................   205
    Biographical and financial information.......................   206
    Responses to post-hearing questions..........................   227
    Letters of Support...........................................   229
Shana Frost Matini to be an Associate Judge, Superior Court of 
  the District of Columbia
    Testimony....................................................    12
    Prepared statement...........................................   235
    Biographical and financial information.......................   236
    Responses to post-hearing questions..........................   262
    Letters of Support...........................................   264

                                APPENDIX

Letters for the Record:
    American Federation of Government Employees..................   283
    National Treasury Employees Union............................   285

 
                     NOMINATIONS OF ANN C. FISHER,
                   ASHLEY E. POLING, CATHERINE BIRD,
                RAINEY R. BRANDT, AND SHANA FROST MATINI

                              ----------                              


                         TUESDAY, JULY 16, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
342, Dirksen Senate Office Building, Hon. James Lankford 
presiding.
    Present: Senators Johnson, Lankford, Hawley, Peters, 
Carper, Hassan, Sinema, and Rosen.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Good morning, everyone. Today we are 
considering five nominations--and I apologize for starting 3 
minutes late to do it, but we will make up the time--Ann Fisher 
and Ashley Poling to be Commissioners of the Postal Regulatory 
Commission (PRC), Catherine Bird to be General Counsel (GC), 
Federal Labor Relations Authority (FLRA); Rainey Brandt and 
Shana Matini to be Associates Judges, Superior Court of the 
District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 27.
---------------------------------------------------------------------------
    Ms. Ann Fisher currently serves as the Director of Public 
Affairs and Government Relations at the Postal Regulatory 
Commission. She previously served in several senior staff 
positions in the U.S. Senate, including Deputy Staff Director 
of this Committee, under Chairman Collins.
    Ms. Ashley Poling currently serves Ranking Member Gary 
Peters as Director of Governmental Affairs and Senior Counsel 
on the Committee, and I have heard you have very strong 
statements in opposition today. [Laughter.]
    She previously served as the Counsel to Senator Jon Tester, 
which was a lapse in judgment for you, and Senior Counsel to 
Heidi Heitkamp, which made up for your lapse in judgment for 
Jon Tester, on the Subcommittee on Regulatory Affairs and 
Federal Management (RAFM).
    Ms. Catherine Bird currently serves as the Principal Deputy 
Assistant Secretary for Administration at the Department of 
Health and Human Services (HHS). She previously served as 
Legislative Director for California Senator John Moorlach, and 
is a Legislative Aide for California State Senator Ted Gaines.
    Magistrate Judge Rainey Brandt currently serves as 
Magistrate Judge in the D.C. Superior Court. She is also an 
Adjunct Associate Professor at American University's Department 
of Justice, Law, and Criminology.
    Magistrate Judge Shana Frost Matini currently serves as 
Magistrate Judge on the D.C. Superior Court. She previously 
served as a trial attorney in the Office of the Attorney 
General of D.C.
    The Committee takes all of these nominations extremely 
seriously, as you have noticed, based on all the background 
work and the staff conversations and the endless numbers of 
forms and questions that you have all received. We are pleased 
to have these nominees before us right now.
    The Committee staff reached out to many of the colleagues 
and affiliates of the nominees. They spoke highly of their 
professional abilities and your fitness to potentially serve in 
the roles to which you have been nominated. Staff interviewed 
the nominees on an array of issues, and each has thoughtfully 
and competently answered each question.
    I look forward to speaking with each of you more today on 
your experience and accomplishments, how you intend to bring 
them to bear for the Federal Government and the District of 
Columbia.
    I will now recognize the Ranking Member Sinema, who is 
going to defer to Senator Peters, and so we are going to skip 
over my deferment to deferment. How about that? So we can go 
from there.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. That sounds good. So, thank you, Chairman 
Lankford, and I know Senator Sinema will be here shortly and 
she will be----
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 29.
---------------------------------------------------------------------------
    Senator Lankford. She is probably running eight miles 
somewhere.
    Senator Peters [continuing]. She is on her way here and 
will have a more formal opening. But I wanted to have an 
opportunity to thank all of the nominees here.
    But I would like to add a few words about one nominee, and 
that is Ashley Poling, who I am very fortunate to have on my 
committee staff, as Director of Governmental Affairs and as 
Senior Counsel.
    Over the past year, Ashley has been a valued advisor and 
she has been instrumental in much of this Committee's work 
since she started working for Senator Tester 6 years ago. 
Ashley went on to serve as a key advisor on postal issues for 
Senator Heitkamp before joining my team.
    And, Mr. Chairman, Senator Heitkamp has submitted a formal 
letter of--I can only characterize this as one say, and that is 
enthusiastic support for her nomination, and I would like to 
have the letter entered into the record.\2\
---------------------------------------------------------------------------
    \2\ The letter of Senator Heitkamp appears in the Appendix on page 
144.
---------------------------------------------------------------------------
    Senator Lankford. Without objection.
    Senator Peters. Staff and members who have worked with 
Ashley over the years are likely familiar with her unique 
ability to work through complex policy issues to find 
bipartisan paths forward. I am confident that she will bring 
this skill to the Postal Regulatory Commission. I also 
appreciate Ashley's commitment to mentoring staff on her team 
as well as the enthusiasm and depth of policy knowledge she has 
brought to this Committee.
    So, Ashley, on behalf of myself and the Homeland Security 
and Governmental Affairs Committee (HSGAC) Members past and 
present, we all thank you, and I look forward to your testimony 
as well as the testimony of others before us today.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you. I recognize Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Well, thank you, Mr. Chairman, and thank 
you to today's nominees for their willingness to serve. Our 
nation needs the best possible people to serve inside our 
Federal Government, and I am glad that so many of the nominees' 
families could be here with us today.
    I have a longer opening statement that I will ask the 
Chairman to add to the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Sinema appears in the 
Appendix on page 32.
---------------------------------------------------------------------------
    Senator Lankford. Without objection.
    Senator Sinema. Thank you. I wish all of our nominees the 
best and I look forward to our conversation.
    That is it.
    Senator Lankford. Alright. I will take the shorter 
statement publicly and take the longer statement by record. 
That is terrific.
    I do want to recognize--we have couple of special guests 
that are here with us today as well. Congressman Meadows wanted 
to do a special introduction today of Ashley Poling, and we 
would be pleased to be able to receive your opening statement 
right now.

OPENING STATEMENT OF MARK MEADOWS, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Meadows. Thank you, Mr. Chairman, and Chairman Johnson, 
Ranking Member Sinema, Ranking Member Peters, and Members of 
the Committee. Thank you so much for giving me this honor.
    In DC there are a lot of heavy lifts. This is not one of 
those. I can tell you that when I came to Congress postal 
reform was last--no, if there was a number below last in terms 
of my priority it would be postal reform, and yet I have had 
the opportunity to meet with Ann and Ashley. And what I wanted 
to do is share, for this Committee's consideration--you have a 
Republican Member of Congress introducing a Democrat nominee, 
and that does not happy very often in this town, and it only 
happens because of the exceptional talent of Ashley Poling.
    I want to just, Mr. Chairman, and for the Committee, to 
raise the awareness of this public servant. I can tell you that 
in this town, all of you know--this is not your first rodeo--
you understand the partisan politics that happen each and every 
day, on every piece of legislation. And yet when we were 
working in the House, Ashley, not once, not twice, not three 
times, but multiple times continued to reach out to advocate 
for her State, and at that time for Senator Heitkamp, for the 
service standards that rural America needs to make sure that is 
put in place.
    And I can tell you, Senator Sinema, we actually went to 
Arizona, to your home State. We visited a processing center in 
Tucson, Arizona, that you are very well aware of. And one of 
the big things that Ms. Poling was pushing for is making sure 
that we do not close down processing centers that ultimately 
makes mail a 1-week or 2-week delivery system, when, candidly, 
it is such a central part of who we are as a Nation. I know, in 
the mountains of western North Carolina, there are more stories 
and more living that takes place at the U.S. Postal Service 
(USPS) and those centers than anyplace else.
    You go to the post office and you share the stories, but it 
is not just that. We have come to rely on this system, and it 
is in a crisis mode. Quite frankly, as a business guy, I do not 
know how we solve this. I look at the financial stability of 
where our postal system is and from a business perspective it 
is bankrupt, and so any consideration that this Committee can 
make to move these two individuals through very quickly to make 
sure that the Postal Regulatory Commission is fully staffed 
very quickly. Every day we have a $145 billion deficit--that is 
billions with a B--that if we do not address immediately, all 
of us, whether we are Democrat or Republican, will see the 
results of that back home.
    And, last, I would close with this. It is not about Ashley. 
She is here today because she has actually done the hard work, 
as Senator Peters so eloquently put in his opening remarks. But 
she did the hard work behind the scenes, each and every day, 
not caring who got the credit. And in a town where it is all 
about who gets the credit, I can say that not only my 
unqualified endorsement of Ashley Poling is something that 
truly impressed me, but she knows more about postal than 
anybody on Capitol Hill.
    And so I would strongly encourage your consideration, your 
expedient consideration of her nomination. I consider her a 
friend, but I also consider her an expert. And for her parents 
who are here in the audience, you can be extremely proud of the 
daughter that you have and the way that she carries herself in 
such a professional manner.
    And so with that I thank this esteemed body for allowing me 
the opportunity to introduce Ashley Poling for your 
consideration.
    I yield back.
    Senator Lankford. Mark, thank you so much for your 
recommendation on this. You have thoroughly ruined your 
reputation now as a Republican Member of Congress.
    Mr. Meadows. Well, that was the danger. I got that.
    Senator Lankford. Let me also bring some additional letters 
of recommendation. Mark, thank you really for being here. I 
appreciate very much that.
    I want to acknowledge some letters of support that have 
been submitted to the Committee in favor of the nominees, 
including a letter from our colleague, Senator Susan Collins of 
Maine, in support of Ann Fisher. She is a long-time staffer to 
Susan Collins and this Committee, and so we appreciate very 
much your leadership.
    And so I am asking unanimous consent, without objection, 
for Senator Collins' letter to be included as well.\1\
---------------------------------------------------------------------------
    \1\ The letter submitted by Senator Collins appears in the Appendix 
on page 84.
---------------------------------------------------------------------------
    I would call on Senator Carper to be able to make a 
statement as well, at this time, on one of our nominees, as 
well.

   OPENING STATEMENT OF THOMAS R. CARPER,\2\ A UNITED STATES 
               SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. It is great to be on 
this side of the dais, actually sitting next to this woman.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Carper appear in the Appendix 
on page 30.
---------------------------------------------------------------------------
    Senator Lankford. We have a few questions for you while you 
are on that side, as well. [Laughter.]
    Senator Carper. Well, I have a few answers.
    I am honored to sit here next to Ann Fisher. I have known 
Ann for, a dozen years or so, and walking over at the time, I 
would describe her--I am going to talk a bit about her 
credentials and then I will yield back--I would also describe 
her as mother of the year twice, arguably one of the luckiest 
guys around. You did a great job working for Susan in all other 
capacities, where I first got to know her.
    But I think when she speaks she will introduce her husband, 
David, and daughters, I think Dagney--is it Dagney? Is that 
correct--Dagney and Regan--it is not Regan, is it?
    Ms. Fisher. Regan.
    Senator Carper. Regan. I wanted to thank both Dagney and 
Regan for sharing their mom, and I want to thank David for 
sharing his wife with our country, very much.
    And when we look at Ann's resume she can be summed up in a 
couple of quick bullet points, and one of those is senior 
government executive with over 20 years of experience on Postal 
Service-related issues, trusted government liaison to the U.S. 
Congress, thought leader on the U.S. Postal Service, and a key 
leader in the postal stakeholder community.
    None of these quick snippets can really describe, though, 
Ann Fisher. I have had the real privilege of working with her 
and have grown to respect her over nearly two decades. Each 
bullet only describes a piece of Ann and who she is, but 
together these bullets show she is an unquestionably qualified 
person to be a PRC Commission.
    The Postal Service is the linchpin, as we know, of a 
trillion-dollar mailing industry, and the role of the regulator 
is one that cannot be overestimated. You need someone who 
understands postal product pricing and someone who understands 
the intricacies of the postal marketplace. That is Ann Fisher.
    For more than 20 years, Ann has been at the forefront of 
postal issues. When she was the former Republican Deputy Staff 
Director of this Committee, I had the pleasure of working with 
her on postal reform issues, over 12 years ago, and we have 
continued to work together since then in her roles in the PRC 
on numerous legislative policy reforms.
    Party politics aside, Ann is, first and foremost, a 
professional. Any time you ask Ann a question, we are going to 
get an honest and a thoughtful answer. She is woman of 
integrity and her long-standing relationships in the postal 
community, with all the stakeholders, and with the unions show 
that Ann is going to be an impartial leader for the PRC.
    Her knowledge and her character are why she is prepared to 
a regulator for the largest employer in America, behind 
Walmart, and I look forward to the work that Ann will do as a 
commissioner on the PRC, and I rest easy knowing that she will 
be watching out for the health of this vital Federal agency.
    I think, Mr. Chairman and colleagues, there is a certain 
irony that I hope is not lost. Mark Meadows was here to 
introduce Ashley--Mark, a Republican, Ashley, a Democrat--and I 
am here to introduce Ann Fisher. That is the way this place is 
supposed to work. That is the way this Committee works, and I 
think it is a special day for that reason.
    Thank you.
    Senator Lankford. Senator Carper, thank you very much.
    It is the custom of this Committee to swear in all 
witnesses before you testify.
    Senator Carper. Do you want to swear me in too? [Laughter.]
    Senator Lankford. You know what? We will allow you to not 
do public swearing today.
    So I would ask each of you that are at the table to please 
rise, raise your right hand.
    Do you swear the testimony that you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Fisher. I do.
    Ms. Poling. I do.
    Ms. Bird. I do.
    Ms. Brandt. I do.
    Ms. Matini. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect that the witnesses all answered in the 
affirmative.
    I want to recognize Ms. Fisher for an opening statement, 
but I would hope for all of you, when you give your opening 
statement, that you will also introduce your families here and 
let everybody know who they are. They have come this journey 
with you and we think it is extremely important to be able to 
acknowledge those folks that are walking on this journey with 
you as well.
    Ms. Fisher, you are recognized first.

TESTIMONY OF ANN C. FISHER,\1\ NOMINATED TO BE A COMMISSIONER, 
                  POSTAL REGULATORY COMMISSION

    Ms. Fisher. Chairman Lankford, Chairman Johnson, and 
Ranking Member Sinema, Members of the Committee, thank you for 
the opportunity to appear before you today, and for your 
consideration of my qualifications to be a commissioner of the 
Postal Regulatory Commission. I would also like to thank 
President Trump for nominating me. I am deeply honored.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Fisher appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    I am grateful to have with me today my husband, David 
Fisher, my two daughters, Dagny and Regan Fisher, and my nephew 
August Veerman of Sioux Falls, South Dakota. While my parents, 
Paul and Cathryn Rehfuss, are not able to be here today, I know 
they will be proudly watching from their home in Yankton, South 
Dakota. Both were long-time public servants for the State of 
South Dakota, and have instilled in me the value of a career 
dedicated to public service.
    This past May, I marked my 26th year of Federal service 
with all but two of those years devoted to postal issues. In 
the Senate, I benefited from working for three different 
senators representing very different States: South Dakota, 
Mississippi, and Maine. Naturally, part of my time was spent 
assisting the members' constituents with a myriad of postal 
issues. I noticed that post office closures consistently 
generated the most passion. I learned how much people across 
America care about their local post office, especially in 
highly rural areas.
    As a government relations manager at Postal Service 
headquarters here in Washington, I developed an appreciation 
for the vast scope of the postal network and the complexity 
involved in moving a single piece of mail from the post office 
or a blue box to someone's mailbox across town or across the 
country. I also spent a good deal of time traveling to 
midwestern States, meeting with local postal officials and 
congressional staff, helping to ensure transparency of postal 
operations and resolve community concerns.
    Starting at the Postal Regulatory Commission in 2007, I 
worked as chief of staff to former Chairman Dan Blair, then 
later became the director of public affairs and government 
relations, where I have worked the past 11 years. Our mission 
is to ensure the transparency and accountability of the Postal 
Service. The Commission prides itself on providing timely and 
rigorous analyses, while optimizing stakeholder engagement. 
With a major review of the system for setting market dominant 
rates well underway, the qualifications, fairness, and 
impartiality of the commissioners is paramount.
    My background at the Commission provides me a wide variety 
of experiences necessary to meaningfully contribute as a 
commissioner and maintain this high level of transparency and 
accountability.
    To date, the most challenging yet rewarding part of my 
career was my time spent as deputy staff director to the former 
Chairman of this Committee, Susan Collins, as she, together 
with then-Ranking Member Carper, crafted a Senate companion to 
the House of Representatives postal reform bill.
    Updating postal laws that had been in place since 1970 was 
incredibly difficult, for the U.S. Postal Service is the 
centerpiece of a $1.4 trillion mailing industry that employs 
more than 7.5 million people. After years of effort and a 
multitude of obstacles, The Postal Accountability and 
Enhancement Act (PAEA) was signed into law by President Bush in 
2006. Unfortunately, shortly thereafter, the Great Recession 
coupled with accelerated electronic diversion dramatically 
reduced mail volume. Today, the Postal Service has lost money 
12 years in a row and has an outstanding debt of $11 billion.
    I took great interest in the December 2018 report issued by 
Treasury Secretary Mnuchin's Task Force on the United States 
Postal System. While opinions of the recommendations made 
within the report may be varied, I think most can agree with 
the task force goal of identifying a path for the U.S. Postal 
Service to operate a sustainable business model, provide 
necessary mail services to citizens and businesses, and compete 
fairly in commercial markets.
    Difficult decisions lie ahead for Congress and the 
Commission with respect to potential postal reform. I believe 
my experience working within the U.S. Senate, at the U.S. 
Postal Service, and at the Postal Regulatory Commission have 
given me a clear understanding of the challenges faced by 
today's Postal Service, as well as viable options for the 
future.
    Mr. Chairman, if confirmed, I will dedicate myself to 
working with Congress, the Administration, and the Postal 
Service to ensure that users of the postal system have a 
vibrant and efficient mail system for many years to come. Thank 
you.
    Chairman Johnson. Ms. Poling.

      TESTIMONY OF ASHLEY E. POLING,\1\ NOMINATED TO BE A 
           COMMISSIONER, POSTAL REGULATORY COMMISSION

    Ms. Poling. Good morning Chairman Lankford, Ranking Member 
Sinema, and Members of the Committee. Thank you for inviting me 
to testify today regarding my nomination to the Postal 
Regulatory Commission.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Poling appears in the Appendix on 
page 86.
---------------------------------------------------------------------------
    I am thankful for the family, mentors, friends, and 
colleagues who could all be here today. It means the world to 
me. I would also like to take a moment to introduce and thank 
my wonderful parents, Barclay and Lindy Poling, who are sitting 
right over there. Their unwavering guidance, love, and support 
over the years has been nothing short of extraordinary, and 
they have truly shown me what it means to be a public servant. 
They have also had to hear far more about postal issues over 
the years than any parents ever should, and for that I will be 
forever grateful.
    I would also like to thank Congressman Mark Meadows for 
introducing me today and Senator Heidi Heitkamp for her letter 
of support for the hearing record, as well as Ranking Member 
Peters for his kind words.
    I have spent significant time working on postal policy in 
the U.S. Senate, and I have been uniquely fortunate to work for 
three past and present Members of this Committee: Ranking 
Member Gary Peters of Michigan, Senator Heidi Heitkamp of North 
Dakota, and Senator Jon Tester of Montana. In over 5 years of 
working on the Homeland Security and Governmental Affairs 
Committee, I have gained a strong appreciation for the vital 
role that the Postal Service plays in the lives of postal 
customers across our Nation.
    In my work for the States of Montana and North Dakota, I 
have personally seen how post offices represent the heart of 
the communities they serve and why the Postal Service is a 
lifeline to the individuals and small businesses in rural 
America. It became clear to me that in order to protect and 
improve the speed of mail delivery for rural communities, it 
was essential to improve service performance across the country 
by ensuring that strong service provisions were included in any 
comprehensive postal reform bill. Because service provisions 
were not considered to be an essential part of reform 
legislation at the beginning of this multi-year effort, we 
worked to develop a broader national service protection 
strategy that ultimately benefited the postal customer on the 
local level and would ensure the Postal Service's 
accountability to its customers.
    Relationship-building is crucial to the success of any 
legislative efforts on the Hill, and it was a key part of our 
educational efforts on service in both the House and the Senate 
and on both sides of the aisle. Key among those relationships 
was a strong, bipartisan postal alliance between Senator 
Heitkamp and the Chairman of the Subcommittee with jurisdiction 
over postal on the House Oversight and Reform Committee, 
Congressman Mark Meadows of North Carolina. The Senator and the 
Congressman became aligned on the issue of service after 
realizing how much they had in common in regards to rural 
communities in their respective States of North Dakota and 
North Carolina. Their advocacy in respect to this issue is one 
of the primary reasons why service provisions are now an 
important part of any comprehensive postal reform discussion.
    In addition to this specific work on service, I have played 
an integral role negotiating four separate postal reform bills 
over the years and have become intimately familiar with the 
various components that make up comprehensive postal 
legislation. Throughout this time, I have continued to build, 
preserve, and advance trusted and strong interpersonal 
relationships over multiple Congresses with the entire postal 
community. This includes stakeholders from a large coalition of 
mailers, all four of the major postal unions, postmasters, 
postal supervisors, the Postal Service, the Postal Regulatory 
Commission, the Postal Service Office of Inspector General 
(OIG), and offices in the House and the Senate, on both sides 
of the aisle.
    The United States Postal Service is at a critical 
crossroads in our Nation's history. It faces significant 
financial challenges that pose a very real threat to its long-
term viability. The fiscal path that the Postal Service is on 
is not a sustainable one, but it also has the very real 
potential for revitalization through needed legislative reforms 
in Congress. By working collaboratively across the postal 
community on these challenges, I believe we can preserve, 
revitalize, and modernize a vital lifeline of communication 
that has existed for over 200 years.
    If confirmed as a Postal Regulatory Commissioner, I would 
welcome the opportunity to actively work with all of our 
stakeholders, this Committee, the entire Congress, my fellow 
commissioners, and the Postal Service to find common-sense, 
lasting solutions to the challenges faced by this agency so 
that the best results can be delivered to postal customers 
across our country.
    Thank you for considering my nomination and I look forward 
to answering your questions.
    Chairman Johnson. Thank you. Ms. Bird.

    TESTIMONY OF CATHERINE BIRD,\1\ NOMINATED TO BE GENERAL 
           COUNSEL, FEDERAL LABOR RELATIONS AUTHORITY

    Ms. Bird. Chairman Lankford, Ranking Member Sinema, Members 
of the Committee, thank you for the opportunity to discuss my 
nomination to become General Counsel of the Federal Labor 
Relations Authority. I would like to thank the Committee on 
Homeland Security and Governmental Affairs and its staff for 
all the courtesies they have shown me as I have prepared for 
this hearing. Additionally, I would like to thank the staff at 
the FLRA who have provided assistance during this process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bird appears in the Appendix on 
page 145.
---------------------------------------------------------------------------
    To start, I would like to acknowledge my parents, Gary and 
Linda Hoyer, who are with me today. My mother, who has been a 
teacher for over 40 years, and my father, who works as a 
computer programmer at Dallas Theological Seminary in Texas, 
helped mold me to who I am today. I am extremely grateful for 
their constant support and guidance in my life.
    It is an honor and privilege to be nominated by President 
Trump to serve as the General Counsel of the FLRA.
    I grew up in a household which values service to others. As 
I evaluated various career paths to utilize my law degree, I 
quickly chose to use it in service to the American people. Our 
Federal Government serves many critical roles, from providing 
national security to preserving our majestic National Parks, 
and to caring for our wounded warriors or those suffering from 
the devastating effects of the opioid crisis. I have the utmost 
respect for the work of our Federal Government and for the 
dedicated public servants performing that work.
    If confirmed, I can assure you of my commitment to ensure 
that all Federal employees are treated fairly and their rights 
are respected. In particular, I will uphold the rights of 
employees to form, join, or assist any labor organization, or 
to refrain from any such activity, and their right to engage in 
collective bargaining.
    I also believe, as stated in the President's Management 
Agenda, that those in public service must be accountable for 
mission-driven results and that agencies must have the 
necessary tools and resources to deliver those results. If 
confirmed, I would be guided by the need to maintain the smooth 
functioning of our government, to provide excellent service to 
the public, and to be effective stewards of taxpayer dollars on 
behalf of the American people.
    I truly value the incredibly diverse, complex, and 
challenging work our government does, and I consider the FLRA's 
mission to administer the Federal Service Labor-Management 
Relations Statute as integral to achieving a well-functioning 
government. If confirmed as General Counsel of the FLRA, I 
would be honored to be a part of the FLRA's leadership in 
promoting stable, constructive labor relations that contribute 
to a more effective and efficient government.
    My career has provided me with the skill set and experience 
needed to excel in the position for which I am being 
considered. During my time at the Department of Health and 
Human Services, I have worked on three specific issues that 
would benefit me if I were confirmed to this position.
    First, I participated in term-bargaining negotiations on 
behalf of HHS management in discussion with the National 
Treasury Employees Union (NTEU). This experience taught me the 
importance of an objective and impartial Federal Labor 
Relations Authority in ensuring that labor negotiations proceed 
efficiently and effectively. This first-hand experience of the 
collective bargaining process has given me a keen understanding 
of the dynamics of the process and the ability to understand 
the process in a practical and not only theoretical manner. If 
confirmed as General Counsel, I will strongly support the need 
for good faith negotiations as envisioned in the Statute and 
case law, and I will apply the law independently and 
impartially.
    Second, in my role as Principal Deputy Assistant Secretary 
for Administration, I oversaw a highly successful Federal 
Employee Viewpoint Survey (FEVS) program, centered on employee 
engagement. If confirmed, I vow to take employee engagement 
seriously and do everything within my authority to improve 
employee morale in the Office of the General Counsel (OGC).
    Third, in my role at HHS, and in other positions, I have 
been entrusted by employees to investigate complaints and 
address issues they have raised to my attention. These 
situations have required me to critically look at the facts of 
a case, apply applicable rules and regulations, and come to a 
fair and impartial decision. I would apply a similar approach 
in evaluating charges of unfair labor practices. My decisions 
would be grounded in the Statute, regulations, and case law, 
using my best, independent judgment in each case.
    I believe that my experience and passion will provide value 
to not only the FLRA, but by embracing a customer service 
approach will also benefit the many Federal agencies, labor 
organizations, and employees who rely on the work that FLRA 
does.
    Thank you for considering my nomination. I look forward to 
answering any questions you may have.
    Chairman Johnson. Thank you. Ms. Brandt.

  TESTIMONY OF RAINEY R. BRANDT, TO BE AN ASSOCIATE JUDGE,\1\ 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Brandt. Mr. Chairman and Members of the Committee, 
thank you for this opportunity to appear today as you consider 
my nomination to serve as an Associate Judge of the Superior 
Court of the District of Columbia. The Committee Members and 
their staff have been very welcoming and I appreciate the hard 
work and careful consideration of my nomination. I would like 
to thank the D.C. Judicial Nomination Committee and its chair, 
Judge Emmett Sullivan, for recommending me to the White House, 
and the President for nominating me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Brandt appears in the Appendix on 
page 205.
---------------------------------------------------------------------------
    It is an honor to be seated here today with my colleague 
and friend, Judge Shana Matini. Our friendship began over 20 
years ago when we clerked together at Superior Court. I am 
fortunate to have the support and guidance from many friends 
and colleagues, some of whom are here today. I thank you all 
for helping me get to this point.
    Five of them in particular who are present, I would like to 
recognize at this time: Chief Judge Robert Morin, as well as 
former Chief Judge Lee Satterfield, both of whom have been with 
me every step along my judicial journey. Deputy Director of 
Interpol, Michael Hughes, whose friendship is a source of 
support and guidance. Judge Michael Rankin and Judge Stephanie 
Duncan Peters, for whom I clerked, and learned so much about 
how to be a good judge.
    I would like to observe that my mom, Eloise, who died 3 
years ago, is in my heart and I know she is proud of what both 
her daughters have accomplished. My sister, Cricket, who is 
seated behind me, a dedicated D.C. public school teacher, is 
here today to offer her support.
    Last but certainly not least, I would like to thank my 
husband, Chief Robert Brandt of the United States Marshals 
Service. His unconditional love and support enable me to give 
110 percent to District of Columbia.
    I have lived in the District of Columbia for over 30 years. 
Much of my legal career has been at Superior Court, first as a 
student practicing attorney, then judicial law clerk to Judges 
Michael Rankin and Stephanie Duncan-Peters, then as a special 
counsel to three chief judges, and now as a magistrate judge. 
In addition to my work as a lawyer and judicial officer, I 
teach at American University and have done so for over 25 
years. All of these experiences have given me the opportunity 
to be a good public servant, and prepared me to become an 
associate judge.
    Since 2012, I have been a magistrate judge at D.C. Superior 
Court. During my tenure, I have been assigned to the criminal, 
civil, and domestic violence divisions. I am well prepared to 
assume the additional responsibilities of an associate judge. 
In addition to my caseload responsibilities, I serve on a 
variety of court committees and have taken on the leadership 
role of currently being the Deputy Presiding Magistrate Judge.
    Each day I see people from all walks of life, with varied 
degrees of temperament and vulnerability. I work diligently to 
ensure that all litigants who appear before me feel they are 
heard and each case handled fairly, all while preserving the 
rule of law.
    It is an honor to serve the citizens of the District of 
Columbia as I maintain the court's mission of being open to 
all, trusted by all, providing justice to all.
    Thank you again for your consideration, and I look forward 
to answering your questions.
    Chairman Johnson. Thank you. Ms. Matini.

    TESTIMONY OF SHANA FROST MATINI,\1\ NOMINATED TO BE AN 
  ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Matini. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to appear before you today, and 
thank you for considering my nomination to be an Associate 
Judge of the Superior Court of the District of Columbia. I want 
to thank the Judicial Nomination Commission, and in particular 
the Commission's Chair, the Honorable Emmet G. Sullivan, for 
recommending me to the White House, and the President for 
nominating me. I also wish to recognize and thank Chief Judge 
Robert E. Morin, as far as Chief Judge Lee Satterfield, both of 
whom are present today, for their support and leadership, and 
to thank the Committee staff for their hard work in preparing 
for this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Matini appears in the Appendix on 
page 235.
---------------------------------------------------------------------------
    I am so pleased to be joined today by members of my family. 
My father, Robert, resides in California so he is unable to be 
here today, but he is watching online, along with other members 
of my family, with I am sure a great deal of pride. My mother, 
Lynda, traveled from her home in Florida to support me today, 
as she has every day of my life. My husband, Ali, and our 
daughter, Sofia, are also present. Their love and encouragement 
means the world to me and I am thankful to have them in my 
life. I am also joined by a number of friends and colleagues, 
and I am grateful to each of them for their friendship.
    It is a great honor to be considered to be an Associate 
Judge on the Court where my legal career began when the 
Honorable Richard A. Levie hired me to serve as his law clerk. 
I am forever indebted to Judge Levie, who is here today, for 
his guidance and his unwavering support throughout my career. 
My clerkship also provided an opportunity to form long-term 
relationships with my fellow law clerks, including my friend 
and colleague Judge Rainey Brandt, who clerked the same year 
that I did.
    Upon graduation from law school in the District and after 
my clerkship, I worked in both the private and non-profit 
sectors before joining the District of Columbia Office of the 
Attorney General, where I served the District and its citizens 
as a trial attorney in the Civil Litigation and Equity 
Divisions.
    As a litigation attorney for the Office of the Attorney 
General, I practiced regularly in the Superior Court, and 
always found the judges before whom I appeared to be 
thoughtful, fair, and dedicated. Not only did I learn so much 
as a practitioner in Superior Court, but when I was appointed 
to serve as a magistrate judge, I was provided invaluable 
guidance from my Superior Court colleagues.
    Since my appointment as a magistrate judge, I have served 
the Court in the Civil, Criminal, and Family Divisions, and 
thoroughly enjoyed the challenges that each assignment 
presented and the ability to serve my community. I am humbled 
by this nomination and, if I am fortunate enough to be 
confirmed, the opportunity to continue serving the District of 
Columbia as an Associate Judge of the very Court where I 
started as a young lawyer and have learned so much.
    Thank you, and I look forward to answering any questions 
the Committee has.
    Senator Lankford. Thank you. I appreciate very much all of 
your statements there.
    There is a mandatory set of questions that we need to be 
able to ask all of you, and so what I am going to ask is--I am 
going to down the row and I am going to ask the question and 
then each of you, I want you to be able to answer verbally to 
me. Is everybody OK with that? So there are three questions I 
am going to ask, and I am going to ask each of you to answer 
verbally with me.
    The first question, is there anything you are aware of in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated?
    Ms. Fisher.
    Ms. Fisher. No.
    Senator Lankford. Ms. Poling.
    Ms. Poling. No.
    Senator Lankford. Ms. Bird.
    Ms. Bird. No.
    Senator Lankford. Ms. Brandt.
    Ms. Brandt. No.
    Senator Lankford. Ms. Matini.
    Ms. Matini. No.
    Senator Lankford. The second question. Do you know of 
anything, personal or otherwise, that would in any way prevent 
you from fully and honorably discharging the responsibilities 
of the office to which you have been nominated?
    Ms. Fisher.
    Ms. Fisher. No.
    Senator Lankford. Ms. Poling.
    Ms. Poling. No.
    Senator Lankford. Ms. Bird.
    Ms. Bird. No.
    Senator Lankford. Ms. Brandt.
    Ms. Brandt. No.
    Senator Lankford. Ms. Matini.
    Ms. Matini. No.
    Senator Lankford. Thank you.
    Third question. Do you agree, without reservation, to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Ms. Fisher.
    Ms. Fisher. Yes.
    Senator Lankford. Ms. Poling.
    Ms. Poling. Yes.
    Senator Lankford. Ms. Bird.
    Ms. Bird. Yes.
    Senator Lankford. Ms. Brandt.
    Ms. Brandt. Yes.
    Senator Lankford. Ms. Matini.
    Ms. Matini. Yes.
    Senator Lankford. Thank you very much.
    I am going to defer my questions to the very end and move 
to Senator Sinema.
    Senator Sinema. Thank you, Mr. Chairman. My first question 
is for Ms. Fisher.
    One of the chief concerns that Arizona has regarding the 
U.S. Postal Service is inconsistency in service performance. 
Given your many years of experience within the PRC in various 
roles, and the critical role the PRC plays in the oversight of 
service, how can the PRC help the Postal Service improve its 
service performance?
    Ms. Fisher. Thank you, Senator. The Commission, by law, is 
required to consult with the Postal Service on their service 
goals as they set them each year or make modifications to them, 
and we also collect all of the data related to their service 
performance annually and report on the extent to which they 
meet their performance through our Annual Compliance 
Determination, which is issued each year in March.
    I also, in my position, oversee the constituent relations 
aspect, and we receive letters from approximately 7,000 
consumers across America a month, and their number one issue is 
service, and, in particular, it is delayed mail. So we are well 
aware of the issue and will consistently work with the Postal 
Service to encourage them to meet those performance goals. We 
know how important it is across the board.
    Senator Sinema. Thank you. My next question is for Ms. 
Poling.
    Given the recent reports of the Postal Service's new 
business plan and the cuts to service infrastructure contained 
in the plan, it is critical that leaders of postal oversight 
bodies understand the importance of consistent postal service 
to customers and the impacts that misguided service cuts could 
have on local economies.
    If confirmed to this role, how would you use the PRC's 
existing authority to make sure that any proposed Postal 
Service infrastructure changes, including the consolidation of 
processing plants, are closely examined to ensure they make 
sense from a financial and consumer service standpoint?
    Ms. Poling. Thank you, Senator. I think first I would say, 
I think it is wonderful that the PRC already does a lot of 
monitoring of the service performance of the Postal Service. 
With that said, I do think that probably one of the things I 
would really like to examine and explore is, is there more that 
can be done, in terms of holding the Postal Service 
accountable, to make sure they are meeting those service 
performance targets.
    That is something I have explored quite a bit on the 
congressional staffer side, through legislation, in terms of, 
what can be done to make sure that the PRC really is holding 
the Postal Service in complete compliance. That is something I 
would like to examine further, as a commissioner, if confirmed, 
but I also do think that probably Congress has a role to play 
there as well.
    Second, I would say I think it is really important to make 
sure we are getting accurate data. There was an Operational 
Window Change Report that came out in the fall of 2018, that 
actually found that the Postal Service only saved about 5.6 
percent of the projected savings that they said they would for 
changing the overnight service standard. We no longer have an 
overnight service standard anymore. First-Class Mail takes 2 to 
3 days to be delivered.
    I think it is incredibly important to make sure that the 
PRC is getting the most accurate data possible, and I think it 
is important that Congress is getting the most accurate data 
possible from the Postal Service.
    So if confirmed I would do everything I could to make sure 
that we are getting that accurate data so that we can make sure 
that we are serving the American postal customers as 
effectively as possible. Thank you.
    Senator Sinema. My next questions are for Ms. Bird.
    The general counsel at the FLRA is the key decisionmaker 
regarding when unfair labor practice charges move forward. 
Experience with Federal labor law and its practice is an 
essential qualification for the position.
    Before your positions with HHS that started in 2017, what 
was your experience with Federal labor law and its 
adjudication, and have you ever supervised the work product of 
other lawyers working in Federal labor law?
    Ms. Bird. I have not. I did not have specific experience 
with Federal labor law. However, I did deal with labor unions 
often as stakeholders in legislation that was coming before 
members that I worked with in the California State Senate.
    Senator Sinema. Thank you. Since joining HHS in 2017, I 
know you have played a key role in representing the agency's 
interest in the realm of labor management negotiations, 
specifically in the effort to reach a new collective bargaining 
agreement, and you have also advised management in a separate 
labor negotiation at the Department of Veterans Affairs (VA).
    The unions representing employees in these disputes, the 
National Treasury Employees Union and the American Federation 
of Government Employees (AFGE), have provided letters opposing 
your nomination. I do want to submit both letters for the 
record,\1\ with the Chairman's approval, and ask a few 
questions that allow you to respond to the claims in these 
letters.
---------------------------------------------------------------------------
    \1\ The letters referenced by Senator Sinema appears in the 
Appendix on page 283.
---------------------------------------------------------------------------
    Senator Lankford. Without objections.
    Senator Sinema. Thank you.
    In a letter opposing your nomination, the NTEU said that 
HHS moved to declare an impasse in collective bargaining 
negotiations after 1 day of negotiations. Could you tell me how 
your perception of 1 day of bargaining for only a couple of 
identified issues led to an impasse and what your perception of 
good-faith bargaining was in that situation?
    Ms. Bird. I do not agree with that characterization. The 
collective bargaining had begun on that contract back in, I 
believe, 2016, and there had been multiple instances of 
negotiations with the parties. As far as when we moved to 
impasse we had multiple days of negotiations. HHS management 
team felt that it was important early on, because of some of 
the contentiousness of the negotiations prior, to bring in an 
independent body, the Federal Mediation and Conciliation 
Service (FMCS), to help oversee those negotiations, and in an 
effort to reach an agreement. At the direction of the FMCS, the 
parties found themselves to be at impasse quickly, and that 
went to the Impasses Panel, which then made the determination.
    Senator Sinema. Thank you. My next question is also about 
your role advising HHS on collective bargaining negotiations. 
In April of this year, the Federal Service Impasse Panel issued 
a decision on many of the disputed issues from that negotiation 
with NTEU. In your policy questionnaire, and at your recent 
staff interview, you answered several questions by stating you 
would be guided by statute, regulations, and relevant case law, 
but in the April decision the Impasse Panel found multiple 
places where the HHS management position did not follow Federal 
labor relations statute, regulations, and applicable case law. 
I am wondering if you could help square those statements about 
strict adherence to precedence with the recent findings of the 
Impasse Panel.
    Ms. Bird. My role in the HHS management negotiations, and 
really my duty, was to represent management to the best of my 
ability at that negotiations table, which is what I did. My 
role and my duty as general counsel of the FLRA would be to be 
an impartial decisionmaker, and I can commit to look at the 
facts of each case, apply the applicable rules and regulations 
to the individual facts in that case, and come to an impartial 
and a fair decision.
    Senator Sinema. Thank you, Ms. Bird. Mr. Chairman, my time 
has expired.
    Senator Lankford. Thank you. I want to recognize the 
Chairman of the full Committee, Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Chairman Johnson. Thank you, Mr. Chairman. I want to first 
welcome all the nominees and thank you for your past service 
and your willingness to serve in the new capacity, and wish you 
all well.
    I do want to focus a little bit on postal reform because we 
have a unique opportunity with two nominees that are very well 
versed in the subject. So I am going to ask three questions and 
I want both of you to respond, and I will start with Ms. 
Fisher, because you were actually here during 2006 postal 
reform.
    I just want to ask the basic question. What do you think 
was the best part of postal reform, what went right, what went 
wrong, and why are we still talking about fixing the postal 
system?
    Ms. Fisher. I think the rate cap was tremendously helpful. 
The mailers, at that time, a priority concern of theirs was 
stability and consistency. Rates prior to that had been set to 
increase every 2 to 3 years, and for large mailers that was a 
huge jump in what they would pay for postage fees. So the rate 
cap got that right.
    We also, in working with the Postmaster General at the 
time, believe that setting it at Consumer Price Index (CPI) was 
also adequate. That was what the Postal Service had effectively 
operated under for the past 20 years. But we had absolutely no 
idea that shortly after the bill was passed the Great Recession 
would come about, and these seemed to be constraints that were 
just impossibly tight for the Postal Service to operate under 
and still be able to make these multi-billion-dollar Federal 
retiree health benefit payments that we had scheduled for them 
over the coming 40-some years.
    So what I wish is--I do believe the rate cap system was 
right. I wish that we had given the Commission the opportunity 
to possibly revise that sooner than 10 years after enactment. I 
also wish that perhaps there had been language included that 
required more transparency on the end of the Postal Service 
when it comes to making changes in nationwide that impact 
Postal Service across the country.
    We serve an advisory opinion role in that capacity, but the 
advice that we give to the Postal Service is often taken by the 
Postal Service but we do not know what happens with it once we 
have given it.
    Chairman Johnson. OK. Ms. Poling, why didn't 2006 work? I 
mean, why are we still looking at fixing the postal system?
    Ms. Poling. Thank you, Chairman. What I would say, I think, 
first, is that we are at an incredibly different time than we 
were in 2006. If memory serves me right, I think that is right 
before sort of the iPhone came out, before people, I think, 
began to rely even more on electronic mail. That was kind of 
the start on that.
    In addition, I think as Ann said, we did have the recession 
of 2007 to 2009. In addition, we have had declining mail 
volumes. Again, that is coupled----
    Chairman Johnson. And that really could not be predicted 
and was not anticipated----
    Ms. Poling. Exactly.
    Chairman Johnson [continuing]. In the 2006 reform. Because 
I do have limited time----
    Ms. Poling. Yes.
    Chairman Johnson [continuing]. What has been the primary 
impediment to getting something passed, or fixing the system 
over the intervening years? What has been the primary 
impediment?
    Ms. Poling. I would say the primary impediment is getting 
stakeholders on the same page. I think that is something that 
is really tough in the postal community. You have a lot of 
wonderfully passionate people, but finding people--finding kind 
of that sweet spot where everyone can agree is a tough task. I 
have worked on, as I said, a number of postal bills. I have 
seen it year after year.
    I do think, though----
    Chairman Johnson. Getting on the page of what issue?
    Ms. Poling. Well, I think----
    Chairman Johnson. What has been the main problem----
    Ms. Poling. Yes.
    Chairman Johnson [continuing]. That we cannot get agreement 
on?
    Ms. Poling. I think probably the main issue that we have to 
consider is the prefunding mandate for retiree health. Another 
issue that always comes up is rates. We have kind of tried to 
address that some through legislation. Obviously the PRC is 
sort of the primary rate-making body.
    In addition, service, as I spoke about in my opening, is an 
issue that does come up, because that is something that really 
does impact, I think, communities all over this country. 
Finally, I would say ways to modernize the postal system is 
another area that always comes up. I would say there has been a 
lot of discussions on, I think, especially the retiree health 
mandate, how to fix that, has been a struggle.
    I would actually like to comment on the Postal Task Force 
Report. There was an idea on there that actually talked about 
vested liability, using that as potentially as a way of 
reducing the prefunding burden. I will say I have not examined 
that in detail. That is from my reading of the report. But what 
that would essentially do is just look at those existing 
retirees of the Postal Service, as well as those who are about 
to retire, and would not go as far into the future as what we 
have right now.
    So I think there are--and I would comment, I mentioned 
earlier, stakeholders, it is tough to get everyone on the same 
page. That is actually one of the issues that I have heard more 
consensus on than I have many others, and I think it is worth 
really examining that, because I do kind of think that that has 
always been the toughest issue to get through.
    Chairman Johnson. We do need accurate information, and 
there is all kinds of information I have been trying to obtain 
for years and I just simply cannot get it, in terms of--I will 
not get into that.
    Ms. Fisher, I would like your perspective on kind of what 
has been holding things up.
    Ms. Fisher. I do believe it is difficult, as Ashley, said, 
to get members on the same page. I felt hopeful when the White 
House Task Force issued their report, the extent to which it 
discussed the Universal Service Obligation (USO) and possible 
considerations that could be considered around that. This was 
something that the Commission looked at in 2008. We were 
mandated by the 2006 act to look at the universal service 
obligation and the two monopolies, the mailbox and delivery 
everywhere.
    The White House Task Force asked Congress to consider 
looking at things that have the potential for big changes in 
revenue, such as possibly dropping down to 5-day-a-week 
delivery, franchising the mailbox. Those are some big-picture 
items that traditionally Congress has rejected.
    What I would recommend is that a nationwide survey be 
undertaken, and perhaps this could be done by the Commission in 
conjunction with the Postal Service, to ask the American public 
what exactly do you want of your Postal Service today.
    We found, through a smaller poll, done by George Mason 
Institute, whom we worked with on the 2008 report, that of 
around 1,000 people polled, the majority were comfortable with 
the idea of moving to 5-day delivery. A majority were not 
comfortable with the idea of opening up the mailbox, but if it 
were to be opened up to certain companies that they were 
familiar with, then they were very comfortable with the idea. I 
am not advocating for either of these changes, but they are 
worth considering, and I think it is time for an update.
    Chairman Johnson. OK. If the Chairman would indulge me for 
just one final question. By the way, I think the President's 
Task Force on this did a pretty good job of laying out the 
problem. I just want to ask a question on that.
    One of the recommendations was fix the postal system 
without a taxpayer bailout. Do you both agree with that 
position? Ms. Fisher.
    Ms. Fisher. Absolutely. The Postal Service was intended to 
be self-funding and it should be.
    Chairman Johnson. Ms. Poling.
    Ms. Poling. Yes, I do.
    Chairman Johnson. OK. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Lankford. Senator Carper.
    Senator Carper. Thank you, Mr. Chairman. Again, to each of 
our witnesses today, welcome, and congratulations on your 
nominations. And your parents, in some cases, and you families 
are here and friends are here. I have found in my life that 
when daughters or sons turn out well it is usually, in part, 
because they picked the right parents. [Laughter.]
    And for the folks in the audience who helped raise these 
women and molded and shaped them, we want to thank you as well.
    I had a question for Ms. Fisher and Ms. Poling, both of 
you. I have a couple of questions I would like to ask you. The 
first one deals with rate review.
    The Postal Regulatory Commission concluded, I think more 
than a year ago, that the postal rate system was not meeting 
the objectives that Congress set when we last enacted postal 
reform in 2006. In short, the commissioners found that the 
system does not allow the Postal Service to raise the revenues 
it needs to maintain its financial health or to meet the 
service standards that it has established. The Commission has 
not yet finalized the replacement for the existing system.
    I would just ask if each of you could take a minute or two 
to talk about how important you believe it is for the 
Commission to take this next step, and how you plan to approach 
this project if you are confirmed.
    Ann, would you go first?
    Ms. Fisher. Yes. This is one of the most important 
undertakings that the Commission has experienced since my time 
there, in my opinion. The stakes are very high, considering the 
Postal Service's finances. This review has been far more 
complicated than I would have anticipated, and being done in 
accordance with all the rules of the Administrative Procedures 
Act (APA), is can be lengthy.
    We were stalled for a bit, unfortunately, with four 
commissioners coming to reach a majority of consensus on 
certain issues related to the findings, but now since we have 
had a fifth commissioner join our ranks in December things are 
moving forward again.
    I think it is very important that we finish this and get it 
out for public review and comment as soon as possible, and I am 
committed to doing that as soon as I arrive at the Commission.
    Senator Carper. Thank you. Ms. Poling, same question.
    Ms. Poling. Yes. Thank you. Yes, so I would say, this is 
something obviously that was mandated under PAEA, and in that, 
in the proposed rule that the Commission did put out in 
December 2017, they did find that the rate-setting process had 
not been as efficient as they hoped. In addition, they also 
found that the high quality service standards had not been met.
    I think that is a really key piece. Obviously, I know I 
have talked a little bit already today about service, but that 
I would be a piece that I would be particularly interested in 
examining, if I were confirmed to be a commission. But I would 
also be very interested to see all of the work that has gone 
into the analysis that got us to the point of the proposed 
rule, and to make sure that I thoroughly understand it, as well 
as the impact that it would have on the full postal community. 
I think that is really important.
    One thing I would note, in particularly, in the proposed 
rule, there was a proposal that the PRC put forward that would 
actually allow an additional point to be given to the Postal 
Service in the future, in the rate-making process, if they are 
able to meet or exceed service performance targets. I think 
that is really interesting and I think that we have to think of 
ways to make sure that they are, really being held accountable 
in this area, based on how much it impacts every single person 
in this country but also, obviously, in Congress. Members are 
very familiar with this issue and hear about it the most from 
constituents.
    So those are some areas I would be really interested in, 
and I would commit to examining this and working on it, and, 
working through the process as expeditiously as possible.
    Senator Carper. Alright. Thank you both for those 
responses.
    One more question, if I could, with regards to evaluating 
the Postal Service. This is for each of you.
    If confirmed, what steps would each of you take to evaluate 
the status of the Postal Service and the steps that need to be 
taken in the coming months to address both its short-term and 
its long-term financial challenges, and what will your main 
areas of interest be?
    Ms. Poling, would you like to go first?
    Ms. Poling. So I would say I think that we have really got 
to do a full-scale analysis of all the issues that the Postal 
Service has been facing. I have obviously become pretty 
familiar with those in Congress, working through multiple 
variations of legislation. But I also think it would be really 
interesting to make sure that I am fully understanding what 
that looks like in terms of the PRC's role as well, and in 
terms of sort of what we can do to really make sure that the 
postal community is working together.
    One of the strategic missions that the Postal Regulatory 
Commission has in their statement is to create more engaging 
relationships with Congress. I think that is something that I 
could really bring. I have worked with, obviously, members and 
staff across both sides of the aisle. I know the stakeholder 
community incredibly well. I think that is something that I 
could really bring to this. In addition, I would also say my 
service experience, which I have talked about quite a bit, I 
think that is something that really brings an insight into what 
the American postal customer is looking for.
    Ann commented earlier on a review of the universal service 
obligation. I do think we need to absolutely know what 
Americans want today, and we need to know what they want all 
over the country. That is incredibly important. At the end of 
the day, we are serving the American postal customer and we 
have really got to look at that.
    In addition, I would say it would be interesting--the 
Postal Service, obviously, a bright spot for it has really been 
in the package market. I think we need to--I would like to make 
sure I am understanding everything as well as I can, from the 
perspective of a commissioner, if confirmed. But I think that 
really is an area where there is great potential for the Postal 
Service to continue innovating, and if they are able to do so 
more flexibly in the future I think that the sky is truly the 
limit.
    Senator Carper. Alright. Fine. And the same question, Ms. 
Fisher, if you would please. Thank you.
    Ms. Fisher. With respect to the short-term and the long-
term financial condition of the Postal Service, I believe 
resolution of the 10-year review of the market-dominant rate-
setting system is a priority, as that would provide the Postal 
Service with the necessary additional rate authority and 
incentivize them to become more efficient. So that is my number 
one priority.
    Second after that, I am, as I stated earlier, very 
interested in updating the Commission's report on the universal 
service obligations and monopolies. While any changes to the 
universal service obligations are Congress' to make, I would 
love for the Commission to be able to provide them with food 
for thought to help them move ahead in these areas.
    Senator Carper. Alright. Thank you both.
    Mr. Chairman, Albert Einstein used to say, in adversity 
lies opportunity, and there is plenty of adversity.
    Senator Lankford. And lots of opportunity.
    Senator Carper. But there is a fair amount of opportunity 
as well, and if confirmed we hope you will help us find that. 
Thank you. And good luck, everyone. Thank you for your service.
    Senator Lankford. Thank you.
    So then it is down to me. I have just 98 minutes of 
questions left. [Laughter.]
    This will be somewhat of a lightning round, as I go through 
several things here, to be able to go through. And for fear 
that the D.C. Court does not feel like they are getting enough 
attention here I am going to begin with both of you. It is the 
benefit of being on a panel with five here.
    Ms. Matini, I want to begin with you on this. As a nominee, 
do you pledge that the facts in the law will drive your 
decisions on the bench?
    Ms. Matini. Yes.
    Senator Lankford. Thank you. How can you use your position 
best to be able to help solve the problems that D.C. is 
currently facing, just in population and criminal issues, civil 
issues, and just people issues? It is not unique to D.C. It is 
just folks, nationwide. What can you do best to be able to 
serve the people of D.C.?
    Ms. Matini. Thank you, Senator. I believe that if I am 
confirmed to be an associate judge I would continue to do what 
I have done as a magistrate judge, which is to treat the cases 
that come before me all individually, try to keep the cases 
moving expeditiously through the courthouse when people come to 
court. Their cases are very important to them and they are 
important to me. I want to make sure that they each have the 
opportunity to be heard and to receive a decision that is based 
on the facts that I have heard and the law that applies to 
those facts, and to manage the courtroom in a way where 
everyone has the opportunity to be heard but the cases continue 
to move through the courtroom in an expeditious manner.
    Senator Lankford. So let me ask you a follow up question on 
that. How can you make sure that justice is not delayed, 
because that is a big issue, to be able to make sure that the 
backlogs do not continue to stack up and that individuals that 
show up in court actually get their day in the court? They have 
gone through a lot of pain to be able to get to that moment, 
some of them for years. They have prepared, paid attorneys, 
gone through counsel, been in multiple meetings, and it has 
been very difficult. No one looks forward to their day in 
court. They look forward to it being done and getting 
resolution at that point. How can you make sure justice is not 
delayed in your court?
    Ms. Matini. I hold myself to very high standards. I try to 
be as prepared as possibly can for every case that comes before 
me so that I am aware of the potential issues that could come 
up. And I also hold the lawyers that appear before me to the 
same high standard, and I believe that in my experience as a 
magistrate judge over the past 3\1/2\ years my expectations are 
known throughout the courthouse that people should be one time, 
they should be prepared, and that I expect that cases that are 
set for that day are going to go that day, and to try to 
encourage everyone to be as prepared as possible.
    Senator Lankford. So just because an attorney was really 
busy and had three other cases they do not necessarily get 
another 3 months of just extra time for your case.
    Ms. Matini. No, but I also want to make sure that the 
individual that the attorney represents is adequately 
represented. So if it is a situation where an attorney needs 
more time in order to be able to effectively represent an 
individual, I do have to consider that----
    Senator Lankford. Sure.
    Ms. Matini [continuing]. Because to simply move a case 
forward for the sake of expediency, that is not serving the 
purpose of what I need to be doing.
    Senator Lankford. Thank you. The same questions I want to 
ask you, Ms. Brandt. So do you pledge that the facts of the law 
will drive your decisions from the bench?
    Ms. Brandt. Yes.
    Senator Lankford. So how can you use your position best to 
be able to serve the people of D.C.?
    Ms. Brandt. Thank you for the question, Senator. I think 
just by doing what I have been doing for the past 7 years, is 
taking each case as it comes in, applying the law to the facts 
as they present themselves, and making sure that each litigant 
has an opportunity to be heard.
    Senator Lankford. How do we deal with the backlogs, as we 
have talked about before with Ms. Matini? How do we make sure 
that it is not justice delayed in the process?
    Ms. Brandt. Well, I am a self-confessed Type A personality.
    Senator Lankford. Nothing wrong with that.
    Ms. Brandt. So I always like to make sure that I am 
prepared whenever I take the bench, and I expect the lawyers to 
be prepared as well. And part of being prepared, as the judge, 
is setting the appropriate deadlines that the lawyers need to 
meet, and holding the lawyers to those deadlines is part of the 
process of moving the cases through the system. There is always 
an opportunity in individual cases where expediency might be to 
the detriment of the litigant, so you have to take each 
situation as it presents itself and act accordingly.
    I would like to footnote that part of moving the process 
along is being decisive in you decisionmaking.
    Senator Lankford. Thank you.
    Ms. Bird, let me ask you a little bit about--and let me ask 
you this, and I failed to do this earlier and I apologize. Have 
you received a copy of the letters that we put into unanimous 
consent (UC) earlier, that Senator Sinema referenced? Have you 
seen both those letters?
    Ms. Bird. I have not.
    Senator Lankford. OK. Well, I apologize that I did not ask 
you about that earlier. I should have asked you earlier on that 
and to make sure that you get a copy of those.
    One of the issues that was raised in the letter was your 
role in the negotiations with the VA. Can you talk through 
those negotiations real quick, and what was your role at that 
time?
    Ms. Bird. Yes. I provided brief support to the VA 
management team as somewhat of a consultant to them to provide 
experience and knowledge for a short period of time.
    Senator Lankford. OK. But not as an official VA negotiator 
or as a VA representative?
    Ms. Bird. No. there was a detail in place----
    Senator Lankford. Right.
    Ms. Bird [continuing]. To the VA, but no, I was not 
officially a part of the VA's bargaining team. Just more of a 
consultant role.
    Senator Lankford. Can you describe your approach to 
managing employees that are in various geographic locations? 
You are not going to have the privilege of getting a chance to 
see everyone you manage every day. How are you going to handle 
that?
    Ms. Bird. That is correct. Right now at HHS I help oversee 
a division that has 900 employees and many of those employees 
are remote. And so we utilize all different forms of technology 
to stay in constant communication with our employees and to be 
able to do video conferences, things of that nature, to ensure 
that we are fully engaged with employees across the country.
    Senator Lankford. I heard your comments earlier about 
working toward creating a positive working environment, even 
within the general counsel's office, as well as providing fair 
arbitration or negotiation and the opportunity to be able to 
have fair conversation for all parties. Do you feel confident 
you are ready to be able to do that?
    Ms. Bird. Yes, I do. One of the things I mentioned in my 
opening statement is that I have been a part of HHS's very 
well-run Federal employee viewpoint survey----
    Senator Lankford. Right.
    Ms. Bird [continuing]. And we are number one right now in 
large agencies, number two across the Federal Government. So I 
am really excited about the ability to bring that experience to 
the Office of the General Counsel.
    Senator Lankford. That is good. Thank you.
    There are not many postal regulatory questions that have 
not already been asked. The two of you all have had plenty of 
opportunity to be able to go through quite a few things.
    Let me ask you this, though. What can the PRC do, without 
legislative action, to maximize this conversation about rates 
and sustainability of USPS products, especially those that do 
not cover costs right now? There has been an ongoing dialogue 
about some products do not cover the costs, but that is its own 
unique challenge. If I go back to the newspapers in my small 
towns, and for the people that are in many of my communities, 
they are very dependent on trying to be able to get news and to 
be able to get information, and to be able to get periodicals 
and things. Many of those things do not cover costs.
    What do you need legislatively, or what can be done by the 
PRC without legislation?
    Ms. Fisher. Senator, I think that there are the potential 
for movement among the classes of market-dominant and 
competitive products that can be done to allow the Postal 
Service the potential for more rate-setting flexibility. But 
that requires a willing body of Governors to submit such a 
request to the Commission and a willing majority body of 
commissions to approve such a request.
    The issue of the underwater products is constant. It has 
been going on for a long time, decades, I believe. I know that 
the Postal Service has worked very hard, through changes in 
equipment, in the way they process those products, to help 
address the costing issues, but it will also be addressed as 
well in the 10-year review, I believe.
    Senator Lankford. Great. Ms. Poling, do you have anything 
you want to add to that?
    Ms. Poling. Yes. I would just add, you had asked about, I 
think, just really maximizing the role from the position of 
being a PRC commissioner. I think that there really has to be 
really effective oversight, to the extent possible. We did not 
go into this particularly but I know negotiated service 
agreements have been another area that has come up, in terms of 
those covering their costs, and that is something else that the 
Commission obviously evaluates.
    I think from what I understand from USPS, OIG, insight, I 
really think this is somewhere that there needs to be more 
thorough oversight, of who is getting those discounts and 
things like that, with the Postal Service. So that is one area.
    In addition, I would just say I think continuing to really 
monitor, as much as they can, service performance results. I 
think there are excellent examples of collaboration. Right now 
the Postal Service has an internal measurement system that was 
approved by the PRC last summer. That is something that Members 
of Congress, two of my former bosses, worked on, and worked 
closely with the PRC and the Postal Service to do that.
    I bring that up--I think that is an excellent example of 
collaboration and what we need to see more of while there, and 
I will look forward to more fully understanding all parts of 
that role if confirmed.
    Senator Lankford. Alright. Well, there are quite a few 
issues that obviously have to be addressed that we have not 
talked about today, things like security, drugs coming in from 
outside the country or moving around within the country through 
the mail system, illegal products, whether that be ivory that 
is moving into the country or illegal items that are moving in, 
artifacts and such moving in through the mail.
    So there is a wide variety of issues. And we focus very 
often on drugs moving but there is a wide variety of issues 
that have to be addresses and be able to determine what is the 
best way to do that. And we will count on you all to be able to 
help focus on the ideas and make the proposal that are needed 
to be able to address these items.
    My State is not dissimilar to many other States. In 
Oklahoma, we are very dependent on the mail coming, whether it 
be for prescription or for news or for a bill coming in. We are 
very focused on access to that timely product coming into our 
box.
    There is also a tremendous group of letter carriers and 
postal employees that serve in our State that are remarkable 
public servants. And we are very proud of them and very partial 
to them. But we are also looking for answers and 
recommendations as we struggle through this process. I 
appreciate you both stepping up to consider this.
    All of you, you have been through this dialogue but this is 
not the first time to be able to have a dialogue like this. All 
of you have been through extensive background checks. You have 
turned in endless documents. I have personally gone through all 
of your FBI files--it is very exciting, by the way. I have also 
gone through all of the background information for all five of 
you. You have met with our staff who have pummeled you with 
endless questions and then did follow up questions with you. 
You have submitted lots of answers to lots of issues.
    So I appreciate you coming through not only today but what 
you have already walked through. Our goal is to be able to get 
you through this process completely, get you through 
confirmation, and get you on the task, because you did not 
initiate this process so that you could go through 
confirmation. You initiated this process so you could be 
confirmed. So let's finish that out in the days ahead.
    I thank all of you for being so willing to be able to go 
through a long, arduous process, to be able to do this service 
to your country.
    You have all made financial disclosures,\1\ provided 
responses to biographical and hearing questions submitted by 
the Committee.\2\ Without objection, this information will be 
made a part of the hearing record,\3\ with the exception of the 
financial data,\4\ which are on file and available for public 
inspection in the Committee offices.\5\
---------------------------------------------------------------------------
    \1\ The information of Ms. Fisher appears in the Appendix on page 
39.
    \2\ The information of Ms. Poling appears in the Appendix on page 
89.
    \3\ The information of Ms. Bird appears in the Appendix on page 
147.
    \4\ The information of Ms. Brandt appears in the Appendix on page 
206.
    \5\ The information of Ms. Matini appears in the Appendix on page 
236.
---------------------------------------------------------------------------
    The hearing record will remain open until noon tomorrow, 
July 17, for the submission of statements and questions for the 
record.
    Thank you all and thank your families for walking through 
this as well, with all of you.
    With that, the hearing is adjourned.
    [Whereupon, at 11:17 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
